COCKLE

2311 Douglas Street A E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B fi - & i 8 contact(@cocklelegalbriefs.com
st. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-10

LORI BRAUN, AS ADMINISTRATRIX OF THE ESTATE
OF CASSANDRA BRAUN, DECEASED, INDIVIDUALLY
AND ON BEHALF OF ALL WRONGFUL DEATH
BENEFICIARIES OF CASSANDRA BRAUN,
Petitioner,

Vv.

BRIAN RAY BURKE, TROOPER, INDIVIDUALLY
AS AN OFFICER OF THE ARKANSAS STATE POLICE;
BILL BRYANT, COLONEL, INDIVIDUALLY AS
THE CHIEF EXECUTIVE OFFICER OF
THE ARKANSAS STATE POLICE,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2966 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 31st day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Mebraska
A RENEE J, GOSS Konee 9. Hans Queda Ke Chi,

My Comm. Exp. September 8, 2023
Affiant 41413

 

Notary Public
